Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MOUNT SINAI MEDICAL
 CENTER INCORRECTLY BILLED
 MEDICARE INPATIENT CLAIMS
    WITH KWASHIORKOR


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky
                                               Regional Inspector General

                                                        May 2014
                                                      A-03-13-00028
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Mount Sinai Medical Center incorrectly billed Medicare inpatient claims with Kwashiorkor,
 resulting in overpayments of $11,000 over 3 years.

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

Our objective was to determine whether Mount Sinai Medical Center (the Hospital) complied
with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital, which is part of the Mount Sinai Health System, is a 1,171-bed tertiary-care
teaching hospital located in New York, New York. The Hospital received $3,005,732 in
Medicare payments for inpatient hospital claims that included a diagnosis code for Kwashiorkor
during our audit period (CYs 2010 through 2012). We reviewed all 35 of these claims.

WHAT WE FOUND

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
35 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 32 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining three
inpatient claims, the errors resulted in overpayments of $11,308.

Hospital officials attributed these errors to a misinterpretation of the coding guidelines by their
coding staff.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)    i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare program $11,308 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

MOUNT SINAI MEDICAL CENTER COMMENTS AND OUR RESPONSE

In written comments, the Hospital agreed that 30 of the 35 claims that we reviewed were
incorrectly billed with a diagnosis code for Kwashiorkor and described the action it planned to
take to ensure appropriate assignment of diagnoses codes for malnutrition. The Hospital said
that the documentation supported the diagnosis for Kwashiorkor for four of the remaining claims
and that one claim was coded for severe malnutrition and did not have a diagnosis code for
Kwashiorkor. However, changing the diagnosis code did not result in a change in the DRG
payment for these five claims.

After reviewing the hospital’s comments, we maintain that our findings are correct. The
documentation showed that there was a physician’s diagnosis that supported Severe Protein
Calorie Malnutrition, not Kwashiorkor, for four claims and that the fifth claim also had the
diagnosis code for Kwashiorkor.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 The Medicare Program ......................................................................................1
                 Hospital Inpatient Prospective Payment System ...............................................1
                 Mount Sinai Medical Center ..............................................................................1

           How We Conducted This Review..................................................................................2

FINDING ...................................................................................................................................2

           Federal Requirements and Guidance .............................................................................2

           Incorrect Use of the Diagnosis Code for Kwashiorkor. .................................................2

RECOMMENDATIONS ...........................................................................................................3

MOUNT SINAI MEDICAL CENTER COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................................3

APPENDIXES

           A: Audit Scope and Methodology ................................................................................4

           B: Mount Sinai Medical Center Comments ..................................................................6




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)                                              iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Mount Sinai Medical Center (the Hospital) complied
with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

Mount Sinai Medical Center

The Hospital, which is part of the Mount Sinai Health System, is a 1,171-bed tertiary-care
teaching hospital located in New York, New York. The Hospital received $3,005,732 in
Medicare payments for inpatient hospital claims that included diagnosis code 260 for
Kwashiorkor during our audit period (CYs 2010 through 2012) based on CMS’s National Claims
History data.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)   1
HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,005,732 of Medicare payments to the Hospital for 35 claims that contained
diagnosis code 260 for Kwashiorkor. We did not review managed care claims or claims that
were under separate review. We evaluated compliance with selected Medicare billing
requirements but did not use medical review to determine whether the services were medically
necessary. This report does not represent an overall assessment of all claims submitted by the
Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
35 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 32 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining three
inpatient claims, the errors resulted in overpayments of $11,308.

Hospital officials attributed these errors to a misinterpretation of the coding guidelines by their
coding staff.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor on any of the
35 claims that we reviewed, resulting in overpayments of $11,308. The coding guidelines
establish diagnosis code 260 for Kwashiorkor. However, our review of the documentation
provided did not support the billing of this diagnosis code. For 32 of the inpatient claims, the



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)    2
Hospital included multiple diagnosis codes, at least one of which had a similar or greater severity
level. Therefore, removing diagnosis code 260 or replacing it with a more appropriate diagnosis
code resulted in no change in the DRG payment. However, for the remaining three inpatient
claims, the errors resulted in overpayments of $11,308. Hospital officials attributed these errors
to a misinterpretation of the coding guidelines by their coding staff.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $11,308 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

MOUNT SINAI MEDICAL CENTER COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments, the Hospital agreed that 30 of the 35 claims that we reviewed were
incorrectly billed with a diagnosis code for Kwashiorkor and described the action it planned to
take to ensure appropriate assignment of diagnoses codes for malnutrition. The Hospital said
that the documentation supported the diagnosis for Kwashiorkor for four of the remaining claims
and that one claim was coded for severe malnutrition and did not have a diagnosis code for
Kwashiorkor. However, changing the diagnosis code did not result in a change in the DRG
payment for these five claims. The Hospital’s comments are included as Appendix B.

After reviewing the hospital’s comments, we maintain that our findings are correct. The
documentation showed that there was a physician’s diagnosis that supported Severe Protein
Calorie Malnutrition, not Kwashiorkor, for four claims and that the fifth claim also had the
diagnosis code for Kwashiorkor.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $3,005,732 in Medicare payments to the Hospital for 35 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2012. We did not review managed care claims or claims that were under separate
review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our review from September through December 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
        file for the audit period;

    •   selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •   removed all managed care claims and any claims that were previously reviewed by a
        Recovery Audit Contractor;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   repriced each selected claim in order to verify that the original payment by the CMS
        contractor was made correctly;

    •   requested that the Hospital conduct its own review of the 35 claims to determine whether
        the diagnosis code for Kwashiorkor was used correctly;




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)   4
    •   reviewed the medical record documentation that the Hospital provided to support other
        malnutrition diagnoses;

    •   discussed the incorrectly coded claims with Hospital officials to determine the underlying
        causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)   5
             APPENDIX B: MOUNT SINAI MEDICAL CENTER COMMENTS




                             Health Information Management/             The Mount Sinai Medical Center
Mount                        Medical Records                            One Gustave L. Levy Place, Box 1111
Sinai                                                                   New York, NY 10029-6574
                                                                        T 212-241-7601
                                                                        F 212-534-3685


November 26, 2013


Report Number A-03-13-00028


Stephen Virbitsky
Regional Inspector General for Audit Services
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106


Dear Mr. Virbitsky:


This is a follow-up to your letter of September 11, 2013, sent to Frank Cino, Sr. Vice President
and Chief Risk Officer of Mount Sinai Medical Center in regards to the billing of MSMC claims
with the diagnosis code 260-Kwashiorkor.


Your review of MSMC's Medicare claims during calendar years 2010 through 2012 found 35
claims with the diagnosis of Kwashiorkor. On 28 of 35 claims the Kwashiorkor diagnosis did not
affect payment for the claim, but on 7 of 35 it increased payment.


On October 10, 2013, we sent a response addressing the 7 of 35 claims with the diagnosis of
Kwashiorkor that you believed resulted in overpayment to Mount Sinai in the amount of
$68,119. We agreed that Kwashiorkor was not documented on 5 of 7 cases, but that other
severe malnutrition diagnoses supported assignment of codes 261 or 262 which groups the
claims to the original DRGs and would not result in overpayment.


On November 1, 2013, we received preliminary email communication from your office that on 4
of the 7 claims you agreed to replace code 260 with code 262-Severe Malnutrition, which did not
change the DRG payment. On the remaining 3 claims you replaced code 260 with mild
or moderate malnutrition codes which resulted in overpayment of $11,308. Please note that upon
further review, we are accepting your determination on these three cases.


The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)            6
Page 2 – OIG Report Number A-03-13-00028


We have also completed the review of the 28 cases where Kwashiorkor diagnosis did not affect
the payment received by MSMC. The results of this review are as follows:
    • 24 claims had the ICD-9-CM code 260 for Kwashiorkor incorrectly assigned. Supporting
       documentation was found for the diagnoses of either Nutritional Maramus /Severe Malnutrition
       (ICD-9-CM code 261), or Other Severe Protein-Calorie Malnutrition (ICD-
       9-CM code 262)
    • 4 claims contained supporting documentation for the diagnosis of Kwashiorkor and therefore
       code 260 was correctly applied and billed.
    • 1 claim did not show lCD code 260 for Kwashiorkor in our coding/billing systems. Code
       263.9 was assigned for the documented diagnosis of protein calorie malnutrition.

Enclosed please find a listing of the 28 claims and brief rationale for our findings. We are also
submitting copies of the entire medical records to substantiate the results of our review.


As previously noted, the results of this audit will be shared with our coding staff to ensure
appropriate assignment of Malnutrition diagnoses codes.

Thank you for your review and response to our findings.




Sincerely,

/Grethel Escobar-Marks, RHIA/

Director, Health Information Management


cc: Frank Cino
    Tracy Davis



Enclosure




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00028)          7
